U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose Leonel Bonilla-Romero v. United States of America,
S.Ct. No. 20-1708

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 1, 2021,
and placed on the docket on June 10, 2021. The government’s response is due on July 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1708
BONILLA-ROMERO, JOSE LEONEL
USA

COOKE WILSON KELSEY
PARKER & SANCHEZ PLLC
700 LOUISIANA ST.
STE 2700
HOUSTON, TX 77002
713-659-7200
COOKE@PARKERSANCHEZ.COM

